OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/EGYPT’S
FAMILY PLANNING ACTIVITIES
AUDIT REPORT NO. 6-263-06-001-P
September 28, 2006




CAIRO, EGYPT
Office of Inspector General


September 28, 2006

MEMORANDUM

TO:            USAID/Egypt Director, Kenneth C. Ellis

FROM:          Regional Inspector General/Cairo, David H. Pritchard /s/

SUBJECT:       Audit of USAID/Egypt’s Family Planning Activities
               (Report No. 6-263-06-001-P)

This memorandum transmits our final report on the subject audit. We have considered your
comments on the draft report and have included your response in its entirety in Appendix II.

This report includes one recommendation to increase oversight by the Activity Manager of the
family planning program.       Based on your comments and documentation provided, a
management decision has been reached for the recommendation. Determination of final action
will be made by the Audit Performance and Compliance Division (M/CFO/APC).

I appreciate the cooperation and courtesy extended to my staff during the audit.
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 2

Audit Findings ................................................................................................................. 3

Has USAID/Egypt’s family planning program progressed towards
its intended outputs within selected components of the program?

     Many activities needed further progress…..................................................................3

     Some reported outputs within quarterly progress reports
     were not accurate or documented...............................................................................7

Evaluation of Management Comments ......................................................................... 9

Appendix I – Scope and Methodology ........................................................................ 10

Appendix II – Management Comments ....................................................................... 12

Appendix III – Progress Towards Intended Outputs.................................................. 17
SUMMARY OF RESULTS
The Regional Inspector General/Cairo performed this audit to determine if
USAID/Egypt’s family planning program had progressed towards its intended outputs
within selected components of the program. (See page 2.)

USAID/Egypt’s family planning program progressed as intended for 29 of 59 activities
tested during the last two quarters of calendar year 2004 and the first two quarters of
calendar year 2005. (See page 3.) For the items tested, the program successfully
implemented a broad range of planned activities that emphasized youth, gender, and
sustainability issues that improved the lives of recipients through such initiatives as:

•   provision of family planning training to religious leaders,
•   promotion of family planning and reproductive issues on radio and television,
•   establishment of the popular Shabab Tahseen Week for youth, and
•   creation of a national pharmacy and physician electronic consultation database.
    (See page 3.)

Nonetheless, the program has not met the planned progress for 30 of the 59 activities
tested, primarily because of insufficient monitoring of the project's progress and funding
cuts. In addition, the program implementer’s quarterly reports did not accurately report
or document outputs in 21 instances. (See page 7.) As a result, we recommend that the
Director, USAID/Egypt, increase oversight of the measurement, evaluation, and
achievement of the approved objectives of the family planning program. (See page 8.)

In its response to our draft report, USAID/Egypt stated that the Mission had awarded a
contract for an integrated reproductive health services project in order to increase the
level of management control over the contractor. The Cognizant Technical Officer will
institute guidance that will ensure the linkage of all quarterly reports to annual workplans,
and the linkage between projected activities and actual results. Under the contract, the
Mission plans to document all significant changes affecting the new project through
amendments to the award. (See page 16) Therefore, we consider that a management
decision has been reached on the recommendation.                      Appendix II contains
management’s comments in their entirety (without attachments).




                                                                                           1
BACKGROUND
Since 1977, USAID/Egypt has provided assistance to the Government of Egypt in the area
of population and health. As of September 30, 2005, USAID/Egypt had obligated
approximately $900 million for its Population and Health Strategic Objective, which is
currently comprised of three intermediate results. Family planning and reproductive
health is one of these intermediate results. USAID/Egypt provided family planning and
reproductive health assistance to (1) improve demand, (2) improve the quality of clinical
services, (3) ensure adequate supplies of contraceptives, and (4) establish population
policies, management, and support systems.

Family planning and reproductive health accounted for $374 million or about 42 percent
of the total $900 million obligated by USAID/Egypt as of September 30, 2005. In
calendar year 2003, USAID/Egypt obtained technical assistance through a cooperative
agreement that USAID/Washington awarded to the Catalyst Consortium. For this
cooperative agreement, USAID/Egypt obligated about $50 million as of
September 30, 2005. According to the approved statement of work and initial workplan,
the purpose of the project was to sustain the gains from three decades of USAID
investments in family planning, leave a sustainable program, and help Egypt reach its
replacement-level fertility goal by 2015.       This audit selected for review the
                 1
Tahseen/Catalyst Project since other activities had less funding.

USAID/Egypt’s family planning and reproductive health project had been implemented
by the Catalyst Consortium through a USAID/Washington central cooperative agreement
led by Pathfinder International.            The activity’s projected end date was
December 31, 2007. USAID/Egypt bought into this agreement in 2003. This
arrangement ended in September 2005 because the Population and Health Office
favored the use of a contract over a cooperative agreement. During the bridge period
from October to December 2005, the Population and Health Office utilized a temporary
arrangement with the same implementer, Pathfinder International, in order to retain
project continuity. According to the Activity Manager, these changes were necessary to
better monitor and manage the project.


AUDIT OBJECTIVE
The audit was conducted as part of the Office of Inspector General’s audit plan for fiscal
year 2005 to answer the following question:

•   Has USAID/Egypt’s family planning program progressed towards its intended outputs
    within selected components of the program?

Appendix I contains a discussion of the audit’s scope and methodology.




1
 “Tahseen” is an Arabic word meaning “improving.” “Catalyst” is the name of the implementing
organization.


                                                                                               2
AUDIT FINDINGS
USAID/Egypt’s family planning program progressed as intended for 29 of 59 planned
activities tested for the period from July 1, 2004, until June 30, 2005. This program,
through the Catalyst Project, undertook a broad range of planned activities that
emphasized youth, gender, and sustainability issues. For example, among the 29
planned activities that showed progress as intended, the Catalyst Project:

•     provided health education to family members and underserved communities through
      direct contacts, workshops, and printed materials;
•     trained 103 teachers in Minia Governate to provide health education and literacy
      classes to communities;
•     established a National Youth Hotline in January 2005 to provide accurate
      reproductive health information to Egyptian youth;
•     trained 120 male and female religious leaders to increase family planning and
      reproductive health knowledge in three governates;
•     worked alongside media professionals to promote family planning and reproductive
      issues through articles and television and radio programs;
•     produced, in collaboration with the trained media professionals, 25 radio and 19
      television programs aimed at teens and young adults in Upper Egypt;
•     established the popular event, Tahseen’s Shabab 2 Week, in conjunction with schools
      and communities;
•     partnered with non-government organizations and commercial entities; and
•     established and expanded an Ask/Consult national electronic database of
      pharmacies and physicians.

However, as discussed below, half of the activities needed to make better progress. In
addition, the Catalyst Project quarterly progress reports to USAID/Egypt did not
accurately report or document outputs in 21 instances.

Many Activities Needed Further Progress

     Summary: The annual USAID-approved workplans encompassing the last two
     quarters in calendar year 2004 and the first two quarters of calendar year 2005
     projected the completion of 117 activities. Of 59 activities tested, the program
     showed progress in only 29, primarily because of insufficient monitoring of the
     project's progress and funding cuts. As a result, the lack of progress and the
     unapproved changes jeopardized the achievement of sustainable progress set
     forth in the original planning for the components of the project tested.


The annual USAID-approved workplans encompassing the last two quarters in calendar
year 2004 and the first two quarters in calendar year 2005 projected the completion of
117 planned activities. Of the 59 activities tested, the program, through the Catalyst
Project, showed progress in 29 of them. However, the program had not progressed
towards its intended outputs in 30 of 59 planned activities tested. Specifically, 6 of 18

2
    Shabab means “youth.”


                                                                                        3
youth activities, 14 of 24 non-governmental organization sector activities, and 10 of 17
commercial sector activities had not progressed toward intended outputs.

Youth Activities—We reviewed 18 of 50 (36 percent) youth activities listed in the
Catalyst Project’s approved workplans for the last two quarters in calendar year 2004
and the first two quarters in calendar year 2005. The Catalyst Project progressed
towards intended outputs for 12 of the 18 youth activities (67 percent). Following are
some examples of the six activities that had not progressed towards intended outputs:

•   The Project dropped plans to complete a curriculum for youth-friendly services due to
    budget constraints.
•   Budget constraints led to suspension of plans to provide training and technical
    assistance for a peer educator program at Minia University.
•   The Project intended to establish several youth clinics at Egyptian universities, but
    due to budget constraints, it suspended plans to do so.

Appendix III, Table 1, shows the status of progress for all 18 youth activities.

Non-Governmental Organization Activities—We reviewed 24 of 32 (75 percent)
non-governmental organization activities listed in the Catalyst Project’s approved
workplans for the last two quarters in calendar year 2004 and the first two quarters in
calendar year 2005. The Catalyst Project progressed towards intended outputs for 10
(42 percent) of the 24 non-governmental organization sector activities. Following are
some examples of the 14 activities that had not progressed towards intended outputs:

•   USAID agreed to fund plans to assess the capacity of the Ministry of Health and
    Population’s Non-Governmental Health Unit and help it to expand its role. However,
    the project missed its target dates and did not perform the assessment.
•   To further collaboration among the different working groups of the Ministry of Health
    and Population and the Ministry of Insurance and Social Affairs, the project planned
    to conduct four meetings. However, the meetings were not held because the
    Ministries’ representatives were not available.
•   Project activities included linking non-governmental organizations with non-health
    programs of national and international organizations by identifying programs and
    establishing alliances based on mutual interests. This was not accomplished due to
    the lack of interest shown by the organizations.

Appendix III, Table 2, shows the status of progress for all 24 non-governmental
organization sector activities.

Commercial Activities—We reviewed 17 of 35 (49 percent) commercial activities listed
in the Catalyst Project’s approved workplans for the last two quarters in calendar year
2004 and the first two quarters in calendar year 2005. The Catalyst Project progressed
towards intended outputs for 7 of the 17 commercial sector activities (41 percent). The
following are examples of the 10 activities that had not progressed towards intended
outputs:

•   The Project initially planned to link family planning community workers to selected
    pharmacies for social marketing purposes. However, the Project dropped this
    activity because the Ministry of Health and Population did not grant its approval due
    to lack of involvement by physicians and pharmacists.


                                                                                       4
•   The Project explored the possibility of making large pharmacies into stockists, or
    storage places, for small pharmacies. The Project dropped the activity after
    determining it was more suitable for another ongoing USAID project.
•   The Project developed plans to conduct two national pharmacy audits of
    contraceptives and reproductive health and maternal child health products.
    However, because the audits were outside the Catalyst Project’s mandate, the
    Mission authorized the transfer of this activity to another USAID project.

Appendix III, Table 3, shows the status of progress for all 17 commercial sector
activities.

                                         *****

As described, the program, through the Catalyst Project, had not progressed towards
intended outputs for 30 of the 59 activities tested. As shown in Appendix III, the three
primary causes for this were:

•   insufficient monitoring by Mission staff to measure and evaluate recipient progress,
•   budget constraints for 14 activities, and
•   4 activities being transferred or deemed more suitable for other USAID projects,

USAID officials said that they monitored the project implementers through emails, verbal,
and telephonic communications on a regular basis. Nevertheless, they needed to
perform additional monitoring steps. Specifically, USAID officials needed to (1) analyze
the linkages between the annual workplans and quarterly reports and (2) document
approval of changes to workplans.

USAID project officials told us that they did not handle a lot of formal documentation but
were aware of some differences between the workplans and what had been achieved as
reported in the quarterly reports. Furthermore, the Activity Manager was aware of
changes to the workplans made by the Catalyst Project implementers. However, the
Population and Health Office did not document official changes to the annual workplans.
Automated Directives System 202.3.6.3 urges the making of adjustments to programs in
coordination with the Agreement Officer when necessary or when conditions warrant.
Furthermore, according to Automated Directives System 202.3.6, outputs are critical to
achieving results.

In addition to insufficient monitoring, during the period audited, budget constraints
accounted for 14 of the 30 activities lacking progress. According to Mission officials, the
lack of progress occurred primarily because of funding cuts, which led to changes in
planned activities.

The Catalyst Project was part of a larger Population and Health portfolio consisting of
many more hundreds of millions of dollars that were subject to adjustment by
USAID/Washington. In fact, USAID/Washington officials made the decision to cut
Project funding. A responsible Catalyst official told us that because of these funding
cuts, the implementers focused available resources on previously established activities
and community mobilization activities. The Catalyst Project’s quarterly progress reports
warned that budget constraints would limit the extent of the project's capability and some
areas would be cut. For example, the implementer postponed four quarterly meetings
and a workshop for Government of Egypt ministries’ non-governmental organizations


                                                                                           5
committees and 15 training courses for community workers in three governorates and
urban poor areas.

In commenting on the draft report, the Mission highlighted that even though 30 of 59
activities did not achieve planned progress for intended outputs, overall project goals
were met (see Management Comments in Appendix II). Even so, the lack of progress
and the unapproved changes jeopardized the achievement of sustainable progress set
forth in original planning for the components of the project-tested youth activities, non-
governmental organization activities, and commercial activities. We have included a
recommendation to address insufficient monitoring at the conclusion of the following
section.




                                                                                        6
Some Reported Outputs Within Quarterly Progress Reports
Were Not Accurate or Documented

    Summary: The United States Government Accountability Office’s Standards for
    Internal Control in the Federal Government requires accurate recording and clear
    documentation of transactions and events. Of 59 activities tested for the period
    from July 1, 2004, until June 30, 2005, the Catalyst Project quarterly reports did not
    accurately report or document outputs in 21 instances. USAID project officials
    were unaware of the inaccurate or undocumented results in the quarterly reports
    because of the lack of analysis that linked annual workplans and quarterly reports.
    These instances misrepresented the effect of actual results achieved and lessened
    the reliability of reported results. Inaccurate reports impair the effectiveness of
    decision makers.


The United States Government Accountability Office’s Standards for Internal Control in
the Federal Government requires accurate recording and clear documentation of
transactions and events. However, of 59 activities tested, the Catalyst Project quarterly
reports did not accurately report or document outputs in 21 instances. Specifically, the
quarterly reports included:

•   unsupported work products and milestones in 10 instances,
•   same work products and milestones reported more than once in 6 instances,
•   incomplete data for work products and milestones in 4 instances, and
•   work products and milestones inaccurately reported in 1 instance.

Specific examples of inaccurate or unsupported reporting of outputs are:.

•   The Catalyst Project reported in the third quarter of calendar year 2004 that it had
    performed an assessment of the Ministry of Health and Population’s non-
    governmental organization unit. Yet, despite the claim by Catalyst Project staff that
    they performed the assessment, they could not provide a formal written copy.

•   In two instances, Catalyst Project officials did not document meetings held with
    non-governmental organizations to discuss collaboration for non-governmental
    organization partners.

•   The Ministry of Health and Population told us the Catalyst Project gave the Ministry
    6,000 family planning and reproductive health brochures and not the 10,000 reported
    in the quarterly reports.

•   One quarterly report repeated and incorrectly included third quarter training module
    updates with fourth quarter totals.

•   The database pertaining to private sector physicians and pharmacists collected on a
    national level had only been collected in 22 governorates rather than the 27 listed in
    the quarterly report for the second quarter of calendar year 2005.




                                                                                             7
These instances misrepresented the effect of actual outputs achieved and lessened the
reliability of reported outputs. USAID project officials were unaware of the inaccurate or
undocumented outputs in the quarterly reports because of the lack of analysis that linked
annual workplans and quarterly reports. According to Mission officials, they maintained
contact with Catalyst Project implementers through email, verbal, telephonic, and some
written communication on a regular basis. The Activity Manager also made site visits to
participate in clinic openings, observe youth activities, and attend meetings. According
to Automated Directives System 202.3.6, outputs are critical to achieving results. The
monitoring of the quality of outputs produced by implementing partners should be
performed as a major task of the Cognizant Technical Officer and Strategic Objective
Teams.

       Recommendation No. 1: We recommend that the Director, USAID/Egypt,
       initiate actions to increase oversight by the Activity Manager in the
       measurement, evaluation, and achievement of the approved objectives of
       the family planning program.




                                                                                        8
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Egypt highlighted some positive aspects of the family planning/reproductive
health program and further stated, “it would be helpful to cast the tone of the report in a
more positive light.” The Mission provided several clarifications and suggested changes
that we have examined and incorporated into the report in order to present a balanced,
objective view of the activities we audited. Our final report dropped Recommendation
No. 2 because the Mission effectively incorporated the monitoring aspect of the program
into its proposed guidance for the new contract award.
USAID/Egypt stated that the Mission had awarded a contract for an integrated
reproductive health services project in order to increase the level of management control
over the contractor. The Cognizant Technical Officer will institute guidance that will
ensure the linkage of all quarterly reports to annual workplans and the linkage between
projected activities and actual results. Under the contract, the Mission plans to
document all significant changes affecting the new project through amendments to the
award.
Based on the action the Mission took to address the recommendation, we concluded
that a management decision had been made. When this action is completed, please
coordinate final action on the recommendation with the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer.




                                                                                         9
                                                                            APPENDIX I


SCOPE AND METHODOLOGY
Scope

The Regional Inspector General/Cairo conducted this audit in accordance with generally
accepted government auditing standards. We designed this audit to determine whether
USAID/Egypt’s family planning program had progressed towards its intended outputs
within selected components of the program.

The audit covered the Catalyst Project’s planned outputs for the last two quarters of
calendar year 2004 and the first two quarters of calendar year 2005, as detailed in the
2004 and 2005 workplans. Since January 2003, USAID/Egypt had obligated about $50
million to the cooperative agreement for the Catalyst Project. The audit fieldwork was
conducted from September 26, 2005, to March 6, 2006, at the offices of USAID/Egypt
and Pathfinder International in Cairo, Egypt. We also visited the Ministry of Health and
Population offices of the Government of Egypt in Cairo.

According to the Catalyst Project’s statement of work, three cross-cutting issues support
four important themes and underlie the entire project. The issues are youth, gender, and
sustainability.   The four themes are (1) Focusing Attention on Priority Groups;
(2) Improved Quality for the Customer; (3) Stronger Institutional Capacity and Systems;
and (4) Sustainable Sectoral Shares. According to the statement of work, ten results
areas derive from these themes, and each result contains its own planned set of activities
to be achieved. The Catalyst Project’s first year of activity began in January 2003. Each
of the 10 results areas contained numerous outlined activities, further broken down into
their simplest forms, or tasks.

We reviewed the data and written information from quarterly activity reports, annual
workplans, project implementers, and USAID/Egypt project files, and conducted
interviews with USAID program officials and Catalyst Project officials. The audit tested
59 of the 117 reported outputs within the themes of Focusing Attention on Priority Groups
and Sustainable Sectoral Shares. We selected outputs from each area to review and
determine whether Catalyst’s stated outputs had been achieved in accordance with its
annual workplans. The audit included annual workplans encompassing the last two
quarters in calendar year 2004 and the first two quarters in calendar year 2005.

The audit scope included assessing significant management controls over the reporting
of outputs. Such controls included:

•   Collection of data – USAID officials collected data from the implementer through
    quarterly progress reports and annual workplans.
•   Verification of data – USAID officials verified data through field trip visits.
•   Reporting of data – Before the Mission reports results in the Annual Report, the
    program office initiates discussion with the technical office. The program and




                                                                                       10
                                                                             APPENDIX I

   technical offices work together to ensure the completion of required data quality
   assessments.

Audit evidence included documentation such as annual workplans, quarterly progress
reports, and project files, as well as meetings and interviews with USAID, the
implementer, and Government of Egypt officials. There were no prior audit findings
affecting this audit.

Methodology

As part of our audit scope, we gathered documents and information from the Population
and Health Office, which included annual workplans for the years 2004 and 2005 along
with quarterly progress reports from July 2004 to June 2005. We examined initial
scopes of work submitted to USAID and various news accounts.

Based on reviews of reported outputs from the quarterly progress reports, working
conferences with Catalyst Project implementers, and discussions with USAID program
officials, we made conclusions on 59 sampled outputs. We held discussions with the
Catalyst Project Program managers and visited the offices of the implementing partner,
Pathfinder International. To assess the progress made during the scope period, we
gathered project data, including annual workplans, quarterly activity reports, and various
media. It was not necessary to perform an audit step to test the reliability of computer-
accessed data as data had not been manipulated by computer processing. We
undertook the audit to answer the question: Has USAID/Egypt’s family planning program
progressed towards its intended outputs within selected components of the program?

Our approach included selecting activities and tasks and comparing reported outputs of
three results areas—Youth Better Informed, Promoting Non-Governmental Organization
Sector Role, and the Commercial Sector Role—with those set forth in the annual
workplans for years 2004 and 2005. We chose for audit the youth, non-governmental
organization, and commercial areas because they focused on the basic issue of program
sustainability. We held personal interviews with recipient staff, observed operations,
collected documentation of reported outputs, and verified reported outputs through
follow-up telephone interviews with third parties, community workers, and the National
Youth Hotline operators.

We reviewed 18 (36 percent) activities of the 50 listed for the results area, Youth Better
Informed. We chose these 18 because they were readily quantifiable. For the
non-governmental organization sector area, we reviewed 24 of 32 activities (75 percent).
For the commercial sector area, we reviewed 17 of 35 activities (49 percent). We
selected the 24 non-governmental activities and the 17 commercial activities because
they more clearly represented ongoing activities.




                                                                                       11
                                                                             APPENDIX II




Memorandum


To:            Regional Inspector General, David H. Pritchard

From:          DIR, Kenneth C. Ellis

Subject:       Mission Response to Draft Report -- Audit of USAID/Egypt’s Family
               Planning Activities for the Period July 1, 2004 to June 30, 2005, Report
               No. 6-263-06-00X-P, Dated June 25, 2006

Date:          August 23, 2006

The Mission would like to thank the staff of the RIG Office for the time and effort it put
into the audit of the Mission’s family planning/reproductive health (FP/RH) program and
specifically, the Tahseen/Catalyst project. It made an effort to understand both the
technical aspects of the project as well as its many processes, procedures,
inputs/outputs, and results. The audit highlighted some lessons learned that will be
taken into account as we move forward with our next project (see Mission responses to
audit recommendations).

If one analyzes the overall impact of this activity on family planning in Egypt, one cannot
help but note the tremendous strides that have been made. Everything that USAID set
out to do in family planning by 2005 did not materialize (i.e., progress was not achieved
as planned for 30 of the 59 activities tested); yet the overall project goals were met. For
example, the Tahseen/Catalyst project achieved the following over its life of project
(January 2003 - September 2005):
    • the contraceptive prevalence rate in project intervention areas increased
        significantly for all older, married women from 50% to 80% and for young,
        married women from 38% to 73%;
    • the total quality of care in Project clinics improved from 58.3% to 86.1%;
    • more women received antenatal care (30% to 83%);
    • more women received FP counseling (31% to 84%);
    • over 250,000 people were served in Tahseen-assisted clinics;
    • Tahseen/Catalyst’s Corporate Social Responsibility initiative leveraged over
        $1.8M, or 10% of total project expenditures.

In this context, I think that it would be helpful to cast the tone of the report in a more
positive light. Close and detailed inspection of the documents reveals the findings to be
more positive than they first may seem. In order to present an accurate portrayal of
USAID/Egypt’s family planning program, we provide below a number of suggested
factual corrections, clarifications, and modifications to the report. After that, we will
respond to the audit recommendations since they are, in large part, conditioned upon the
suggested changes/clarifications provided below.


                                                                                        12
Suggested Changes/Clarifications

•   Pg. 1
    o 2nd para, 1st sentence: “fiscal” should be changed to “calendar” (2 occurrences).
    o In order to present a clear and complete overview of the report’s findings, we
       suggest rewording the first/second sentence of the last paragraph to:
       “Nonetheless, the program did not meet planned progress for 30 of the 59
       activities tested due to a combination of budget and implementation constraints,
       and monitoring or reporting inaccuracies”.
    o Last para: the wording of the last paragraph implies that the program did not
       achieve planned progress in 30 activities due solely to the inadequacy or fault of
       the program implementer and/or the Activity Manager. For the majority of the 30
       activities however, planned progress was not achieved because of
       implementation or funding issues which were beyond the control of the
       implementer.
•   Pg. 2
    o 1st para, 2nd sentence: “six” should be changed to “three”.
    o 1st para, last sentence: we suggest changing “access” to “demand”.
    o 2nd para, 2nd sentence: “Tahseen/Catalyst” should be changed here to simply
       “Catalyst”, because the relevant cooperative agreement was called Catalyst; the
       project name (only) in Egypt became Tahseen later.
    o 2nd para, last sentence: we suggest clarifying this sentence since at the time of
       the audit field work, Tahseen/Catalyst was not at the mid-point but rather at the
       end of implementation (the agreement ended on September 30, 2005, the month
       the field work began). At that time, the Population and Health (PH) portfolio was
       undergoing significant transition and streamlining: the Healthy Mother/Healthy
       Child project had ended but the plan was for both FP and MCH projects to end
       and then be merged together into an integrated project in 2006. The FP and
       MCH projects have always been the most heavily funded projects in PH and this
       will continue through the new Integrated Reproductive Health Services project.
•   Pg. 3
    o 2nd para (after bullets): rather than “needed better progress,” it would be clearer
       and more accurate to say “…half of the activities did not progress as intended
       due to a combination of budget and implementation constraints as well as
       monitoring or reporting inaccuracies”. Also, a better title for this section might be,
       “Some activities did not progress as planned”.
    o Text box, 2nd sentence: it might be clearer to say, “…of the 59 activities tested,
       30 activities did not progress as planned due to budget and implementation
       constraints, reporting inaccuracies, and insufficient…”
    o Text box, last sentence: also, the conclusion that there was a “lack of progress”
       which “jeopardized the achievement of sustainable progress” is inaccurate.
       Although some project activities were not completed with the same projected
       outputs because of programmatic/budget constraints, this did not compromise
       either the success of the project or its impact on the sustainability of project
       activities.     Indeed, despite the absence of some expected outputs,
       Tahseen/Catalyst was a very successful project, especially in terms of the
       achievement of overall results.

       Also, please note that four years after project design and three years after on-
       the-ground program implementation, strategic and theoretical thinking which was



                                                                                          13
       relevant in 2001/02 was often no longer pertinent or politically/programmatically
       feasible in 2004/5. Further, in retrospect, we recognize that the cooperative
       agreement’s detailed output requirements were unnecessary and left little room
       for flexibility in addressing implementation issues that arose during the project.
•   Pg. 4 (and Appendix III)
    o Entire page: attached to this memo is a copy of the activity-by-activity responses
       by the project implementer (Pathfinder) to each of the report’s findings on activity
       progress.
•   Pg. 5
    o First para after bullets, 2nd sentence: “activity” should be changed to “portfolio”.
    o First para, 3rd sentence: “clinic projects” should be changed to “community
       mobilization activities”.
    o First para, second to last sentence and elsewhere: “missed targets” should be
       clearly and accurately defined. For example, Appendix III notes that Youth
       activity #4, “distribute youth question and answer books to service providers,”
       was a missed target. For that activity, however, the implementer was instructed
       by USAID to design a distribution strategy that was efficient and cost-effective.
       As they explained to the auditors, the MOHP ended up requesting a different
       number of books than the implementer’s original, estimated number to distribute.
       Consequently, due to a change in the number of books requested by the MOHP,
       the target was changed, not missed.

        Pages 5 and 6 references to recipient/contractor salary levels
        Deleted – Relates to Matter Not Included in Report

    o   2nd para, 3rd sentence: please add to the end of the sentence “on a regular
        basis”. This is an important point as the report infers that program management
        was less than adequate or at least was not as informed as it could be. That was
        not the case since we had weekly meetings and almost daily phone calls and
        emails with project staff.
    o   2nd para, last sentence: this is not an accurate statement; every quarterly report
        and work plan was thoroughly reviewed and commented on or discussed at
        length with project staff.      However, what was missed by the program
        management staff was an analysis of the linkage (or sometimes the lack thereof)
        between the workplans and the quarterly reports. This led to the discrepancies
        between what was projected in the workplans and what was actually reported as
        accomplished in the quarterly reports. However, the award of the new Integrated
        project, the change in USAID PH staff, and this audit, all created an opportunity
        to do things differently. As a result, close attention has been paid to the start up
        documentation of the new project. All quarterly reports will be closely linked to
        annual workplans and there will be clear linkages between projected activities
        and actual results.
    o   3rd para, 1st sentence: “Cognizant Technical Officer” should be changed to
        “current Program Manager”. Under Tahseen/Catalyst, the official CTO was
        located in USAID/W. Brenda Doe was the Activity Manager from January 2003 –
        July 2005 and Lisa Childs was the Activity Manager from July – September 2005.
        Only when the new contract was awarded on March 1 for the Integrated project
        did Lisa Childs officially become the CTO.
    o   3rd para, 3rd sentence: We understand that ADS 202.3.6.3 refers primarily to
        significant changes/adjustments in program direction or content rather than more
        minor changes that occur because of normal implementation difficulties. It is also



                                                                                         14
      our understanding that cooperative agreements are designed to be flexible and
      therefore can be responsive to typical implementation issues.
   o 3rd para, 6th sentence: while we recognize that ADS 202.3.6 stipulates that
      outputs are critical to achieving results, the PH Office made significant efforts to
      monitor the quality of outputs. For example, we received copies of most
      documents, reports, curricula, studies, etc. that were produced by the project and
      most of these were read and/or studied. However, and as stated previously, we
      could indeed have been much more vigilant in ensuring that outputs were clearly
      linked to stated objectives as outlined in the workplans. As a result, although
      project outputs themselves were invariably of high quality, they did not always
      correspond to what was projected as outputs in the workplans. This would
      include the numerous outputs that were produced over and above what was
      anticipated in the workplans.
   o 3rd para, last sentence: per the last bullet under “Pg. 3” above, we recommend
      reconsideration of the statement regarding “lack of progress” and “jeopardizing
      the achievement of sustainable progress”. While typical problems arose during
      project implementation (often resulting in some minor changes in direction or
      outputs), the implementers also produced outputs not originally envisioned,
      which led ultimately to results beyond those originally envisioned. As a result,
      despite having not achieved certain outputs, the overall assessment of the
      Tahseen/Catalyst project by the PH Office -- as well as by the Mission -- is that it
      achieved its intended results and was, therefore, very successful. In fact, the
      Egypt program of the Catalyst project has often been held up as a technically
      excellent model and, as a result, other USAID Missions have replicated its
      activities and models.
 • Pg. 7
   o Text box, sentences 2 & 3: the report is accurate in what it says here; as a
      result, new requirements were put in place for the new Integrated project that
      require strict linkage of workplans to quarterly reports, i.e., projected outputs to
      actual outputs. In addition, USAID program management staff will institute
      regular reviews of the quality of a sample of outputs included in quarterly reports
      in order to ensure their accuracy.
   o Text box, 4th sentence: we do not believe that most of the inaccuracies
      presented necessarily impacted the higher level “results” of the project. Some
      outputs were affected but these did not affect overall project results, nor the
      overall success of the project. And as mentioned previously, no attention is
      given in the report to the outputs and results achieved over and above those
      originally envisioned.
• Pg. 8
   o 1st para, 1st sentence: see last bullet under “Pg. 6” above.
   o 1st para, 3rd sentence: to be clear, it might be better to say: “The current
      Cognizant Technical Officer knew about one of the changes but did the previous
      Activity Manager did not document approval of them in the contract project
      files”. This clarifies the fact that there was a change in leadership managing the
      project as well as the fact that the project was implemented through a
      cooperative agreement, not a contract.
   o 1st para, 4th sentence: again, the issue was not a lack of close review of the
      individual documents but rather a lack of analysis of the linkage between the
      workplans and the quarterly reports.
   o 1st para, 6th sentence: “Cognizant Technical Officer” should be changed to
      “Activity Manager”.



                                                                                       15
The subject audit report included two recommendations requiring Mission response:

Recommendation No. 1

         We recommend that the Director, USAID/Egypt, initiate actions to
         increase oversight by the Cognizant Technical Officer in the
         measurement, evaluation, and achievement of the approved objectives of
         the family planning program.

Following is the Mission Response to Recommendation No. 1:

To reiterate briefly some of the points made above, during the audited period numerous
measures were taken in order to provide oversight of project implementation and results.
For example, frequent field visits were conducted; many clinic openings were attended;
numerous project events (from higher level formal events to training sessions to
everyday project meetings) were attended; close inspection was made of project
documentation; hundreds of documents/emails/reports/presentations/notes, etc. were
read and filed; and almost daily contact by phone and email was maintained with project
staff by the PH Office.

In addition, taking into account the responses and statements outlined above, as well as
several lessons learned from the audit report, the current CTO of the Integrated RH
Services project has already taken several significant steps in order to ensure increased
oversight of MCH/FP/RH outputs and results. First, the decision was made by USAID
PH staff to design and award a contract for its new Integrated RH Services project; this
was done specifically in order to increase the level of management control over the new
Contractor. In particular, increased control was sought in order to have a better grasp of
expenditures and costs (including salaries, staffing levels, etc.), to more adequately
manage and control the project budget, and to have more control over project directions,
activities, and outputs.

Second, since the award of the new Integrated RH Services project on March 1, 2006,
the CTO has worked extensively with the Contractor in order to put in place and refine all
project-related documentation (workplans, quarterly/annual reports, PMP, budgets,
vouchers, etc.). Although this is still a work in progress, close attention is being paid to
the quality, accuracy, and consistency of all reporting documentation. In addition, the
CTO instituted very strict and clear guidance so that the Contractor ensures the close
linkage of all quarterly reports to annual workplans, and the clear linkage between
projected activities and actual results.

Finally, as a contract, all significant changes in program direction, activities, and funding
will be fully documented in amendments to the award. Increased attention will also be
paid to ensuring that PH files and documentation are up-to-date and complete in terms
of USAID approvals, changes to discrete activities, challenges and steps to overcome
them, new opportunities, etc.

Mission Response to Recommendation No. 2
Deleted – Relates to Matter Not Included in Report




                                                                                          16
APPENDIX III

Table 1: Progress Towards Intended Outputs of Youth Activities


     Intended Outputs for Second Half of                  Progressed?
     Calendar Year 2004                                   Yes    No     If No, Cause
1    Produce question and answer booklets for youth       Yes
     Support media campaign, Communication for
     Healthy Living Project                               Yes
3    Work with local media professionals                  Yes
     Distribute youth question and answer books to                      Missed target; No
4    service providers                                          No      agreement reached
     Conduct dissemination seminars for Ministry of
     Health and Population, service providers, and
5    others                                               Yes
     Adapt existing curriculum for youth-friendly                       Budget constraints;
6    services                                                   No      suspended plans
     Replicate Center for Development and Population
7    Activities youth programs in each governorate        Yes
     Support to develop and implement Family Life
8    Education projects at schools                        Yes
     Provide training and technical assistance for Peer
9    Education Program                                          No      Budget constraints
     Produce curricula to raise awareness of soldiers
10   regarding family planning and reproductive health    Yes
11   Create youth TV program in Minia Governorate         Yes

Intended Outputs for First Half of Calendar Year 2005
     Insert family planning and reproductive health
     messages in youth-oriented TV and radio
12   programs                                             Yes
     Establish youth-friendly clinics at Egyptian
13   universities and train providers                           No      Budget constraints
14   Implement 53 Tahseen Youth Week programs             Yes
     Train 100 religious leaders to increase family
     planning and reproductive health knowledge in
15   communities                                          Yes
     Train 20 female religious leaders to increase
     family    planning     and reproductive health
16   knowledge in communities                             Yes
                                                                        No interest from
                                                                        others; sponsorship
17   Support marketing of National Youth Hotline                No      lagging
     Implement premarital counseling curriculum in two
18   selected communities                                       No      Budget constraints
     Total=                                               12    6




                                                                                         17
                                                                              APPENDIX III


Table 2: Progress Towards Intended Outputs of Non-Governmental Organization
Activities


                                                           Progressed?
     Intended Outputs for Second Half of
     Calendar Year 2004                                    Yes   No      If No, Cause
     Identify non-governmental organizations to work
1    within additional Minia districts                     Yes
     Continue      working     with    non-governmental
     organizations and follow up activities in the five
2    selected communities                                  Yes
     Establish a Ministry of Health and Population
3    central-level internal committee                      Yes
     Assess the capacity of the non-governmental                         Missed target;
     organization unit and assist the Ministry of Health                 formal assessment
4    and population to expand its role                           No      not performed
     Adapt       existing     training  curriculum   for
5    non-governmental organizations                        Yes
     Train non-governmental organizations on issues
6    related to institutional capacity                     Yes
     Train outreach workers in community outreach,
7    referral, and reproductive health issues              Yes
     Establish non-governmental organizations training
8    groups through training of trainers                         No      Budget constraints
     Link selected non-governmental organization
9    activities to other ongoing programs                  Yes

     Assist Clinical Services Improvement Project to
10   implement its strategic plan                                No      Budget constraints

Intended Outputs for First Half of Calendar Year 2005
     Assess and complete the non-governmental
     organization selection and subgranting/contracting
11   processes                                             Yes
     Conduct four meetings of Ministry of Insurance                      Ministry
     and Social Affairs and Ministry of Health and                       representatives not
12   Population working group                                    No      available
     Conduct four meetings for non-governmental
13   organizations committees of various ministries              No      Budget constraints
     Conduct one workshop for all non-governmental
14   units in various ministries                           Yes
     Conduct a strategy development workshop for the
     Ministry of Health and Population/Population
15   Sector non-governmental organization unit                   No      Budget constraints
     Conduct four meetings with Ministry of Health and
16   Population’s Health Sector Reform Task Force                No      Budget constraints
                                                                         Budget constraints
     Conduct 15 training courses for non-governmental                    1st quarter; changed
     organization outreach workers in 3 governorates                     to on-the-job-training
17   and urban poor areas                                        No      2nd quarter




                                                                                            18
                                                                             APPENDIX III

     Conduct       three    training      courses      for              Budget constraints
     non-governmental      organization      boards     of              1st quarter; changed
     directors in Beni Suef, Fayoum, and urban poor                     to on-the-job-training
18   areas                                                         No   2nd quarter
     Provide      support    to     local     specialized
19   non-governmental organization union                           No   Budget constraints
     Conduct fundraising training for specialized
20   non-governmental organization union members                   No   Budget constraints
     Provide technical assistance in organizational
     development and assist Clinical Services
     Improvement Project to establish independent
21   non-governmental organization status                          No   Budget constraints
     Identify ongoing programs and establish                            No interest from
22   collaboration                                                 No   others
     Establish at least three strategic alliances based                 No interest from
23   on mutual interests                                           No   others
     Link family planning and reproductive health
24   messages                                                Yes
     Total=                                                  10    14




                                                                                           19
                                                                               APPENDIX III

Table 3: Progress Towards Intended Outputs of Commercial Activities


     Intended Outputs for Second Half of                    Progressed?
     Calendar Year 2004                                     Yes    No     If No, Cause
     Expand Ask-Consult Network in new geographical
1    areas                                                  Yes
     Develop an electronic database for all
2    Ask-Consult pharmacies                                 Yes
     Conduct a seminar to disseminate results of
3    assessment of Ask-Consult Network                      Yes
                                                                          Ministry of Health
                                                                          and Population did
     Link family planning community workers to                            not approve; activity
4    selected pharmacies or distributors                          No      dropped
                                                                          Determined more
                                                                          suitable for another
     Explore possibility of making large pharmacies                       USAID project;
5    into stockists for smaller pharmacies                        No      activity dropped
                                                                          Missed target;
     Develop a mechanism to ensure family planning                        incomplete
     and reproductive health product availability in all                  dissemination of
6    pharmacies                                                   No      study results
     Launch a corporate social responsibility activity in                 Missed target;
     Minia Governorate to encourage private sector                        sustainability not
     support and participation in family planning and                     addressed; activity
7    reproductive health                                          No      not on track
                                                                          Transferred to other
                                                                          USAID project;
                                                                          activity dropped
     Conduct two national pharmacy audits of                              because outside
     contraceptives and other reproductive health and                     Tahseen/Catalyst's
8    maternal child health products                               No      mandate
     Involve private sector in the membership of
     technical committees responsible for reproductive                    Transferred to other
     health and family planning program at both central                   USAID project;
9    and regional levels                                          No      activity dropped
Intended Outputs for First Half of Calendar Year 2005
     Expand Ask-Consult Network to include
10   pharmacists and physicians to a national level         Yes
     Start expanding the electronic database to a
11   national level                                         Yes
     Review and validate Ask/Consult network
12   electronic database for the entire country             Yes
     Promote Ask-Consult through TV, radio, and local
     newspapers in collaboration with USAID/Egypt’s
13   Communications for Healthy Living Project              Yes
     Train up to 4,700 Upper Egypt network                                Missed target;
     pharmacists in family planning and reproductive                      trained 1,088
14   health counseling skills                                     No      pharmacists
                                                                          Missed target;
     Train up to 2,391 Upper Egypt physicians in family                   trained 599
15   planning and reproductive health issues                      No      physicians



                                                                                             20
                                                                        APPENDIX III

     Produce quarterly Critically Appraised Topics                 Missed target;
     newsletter in collaboration with USAID/Egypt’s                produced only 3
16   Communications for Healthy Living Project                No   newsletters
                                                                   Transferred to other
     Support pharmaceutical companies with research                USAID project;
     findings related to reproductive health and family            deemed outside
     planning and invite them to participate in the                Tahseen/Catalyst's
17   discussions of these studies                             No   mandate
     Total=                                               7   10




                                                                                     21
